U.S. Department of the Interior
Office of Inspector General




           AUDIT REPORT


      WAPATO IRRIGATION PROJECT,
       BUREAU OF INDIAN AFFAIRS

            REPORT NO. 95-I-1402
              SEPTEMBER 1995
          United States Department of the Interior
                          OFFICE OF INSPECTOR GENERAL




MEMORANDUM

TO:

FROM:


SUBJECT SUMMARY:            Final Audit Report for Your Information - “Wapato
                            Irrigation Project, Bureau of Indian Affairs”
                            (No. 95-I-1402)

Attached for your information is a copy of the final subject audit report.

The Wapato Irrigation Project Office was collecting the reimbursable construction
costs owed by the Project’s non-Indian beneficiaries in a timely manner. However,
the Project Office was not assessing, billing, or collecting annual operation and
maintenance charges. As of September 30, 1994, delinquent operation and
maintenance charges had increased from $2.8 million to $6.5 million over a 4-year
period. We had previously reported on deficiencies in Wapato Project maintenance
in our 1988 audit report (No. 88-42) on Indian irrigation projects. During our
current audit, we noted that neither the Portland Area Office, which oversees the
Project, nor the Project Office had acted to correct these deficiencies. Accordingly,
Project revenues were insufficient to ensure the proper maintenance of Project
facilities, which have continued to deteriorate, some to the point that future
irrigation deliveries may be jeopardized.

We recommended that the Project Office, with technical assistance and oversight by
the Portland Office, take the following corrective actions: develop operation and
maintenance rates that include the full costs of properly operating and maintaining
the Project; establish reserve funds to rehabilitate and replace Project facilities and
equipment; comply with Departmental billing regulations and procedures; and
enforce debt collection procedures. We also recommended that the Portland Area
Office develop a plan to collect the delinquent operation and maintenance debt of
$6.5 million and that the Yakima Agency, which negotiates agricultural leases for
 Indian-owned Project lands, enforce the requirement for surety bonds or other
security instruments for lessees of Indian lands. In addition, we suggested, and the
Bureau requested, a Solicitor’s opinion on whether the $2.1 million in delinquent
 Project operation and maintenance debt proposed for cancellation under the Leavitt
Act would be subject to the Revenue and Reconciliation Act of 1993, which requires
that the Internal Revenue Service be informed of the cancellation of individual debts
over $600. Based on the Bureau’s response to our draft report and discussions with
Bureau officials, we considered all of the recommendations resolved but not
implemented.

If you have any questions concerning this matter, please contact me at 208-5745.



Attachment
                                                                W-IN-BIA-O02-94A

           United States Department of the Interior
                           OFFICE OF INSPECTOR GENERAL
                                  Headquarters Audits
                                 1550 Wilson Boulevard
                                       Suite 401
                                  Arlington, VA 22209




Memorandum

To:       Assistant Secretary for Indian Affairs




Subject: Final Audit Report on the Wapato Irrigation Project, Bureau of Indian
          Affairs (No. 95-I-1402)

The Office of Inspector General has completed a review of the Bureau of Indian
Affairs Wapato Irrigation Project, located on the Yakima Indian Reservation in the
State of Washington. The review was conducted as part of our audit of the Bureau’s
management of its irrigation program. We issued this separate report on the
Wapato Irrigation Project because of the severity of the Project’s financial problems
and the deteriorated state of Project facilities and equipment. Our objective was to
determine whether the Bureau identified and collected reimbursable construction
costs owed by non-Indians and whether it assessed, billed, and collected annual
operation and maintenance charges from project landowners and water users.

We found that Project construction costs were being collected in a timely manner.
The Wapato Project has been able to attain timely and consistent repayment of
reimbursable construction costs because the landowners’ water rights applications
require the repayment of a proportionate share of those costs. As a result, as of
September 30, 1994, the unpaid portion of the reimbursable construction costs for
the Project’s two major units was $72,046, and the amount delinquent was only
$10,279.

However, we also found that neither the Bureau’s Portland Area Office, which
oversees the Project, nor the Project Office had taken actions necessary to obtain all
the operation and maintenance charges owed to the Project and to ensure the proper
maintenance of Project facilities and equipment. As of September 1994, delinquent
operation and maintenance charges totaled $6.5 million, including $1 million that had
not been billed and $1.2 million that had been billed but not collected during fiscal
years 1993 and 1994. Specifically, our review disclosed that:

            The Project Office did not assess operation and maintenance rates based
on the estimated full cost of delivering irrigation water and maintaining Project
facilities. Rates assessed by the Project Office included primarily routine operating
costs but did not include costs for the systematic maintenance, rehabilitation, and
replacement of Project facilities and equipment. Although the Code of Federal
Regulations and the Bureau Manual require full cost-based rates, these regulations
were general, and neither the Bureau nor the Portland Area Office had developed
specific guidance on what costs should be included in the rates and how the costs
should be developed. Accordingly, the Project Office continued to assess rates that
were insufficient to properly maintain the Project.

           The Project Office did not mail annual operation and maintenance bills
to all water users and landowners of idle allotted Indian trust lands. The bills were
not mailed primarily because Yakima Agency Realty personnel did not provide the
Project Office with the current names and addresses of the owners and lessees of
these lands and the Project did not modify its billing practices to conform with the
Departmental requirement that the landowners and lessees should be notified in
writing of their debt. For fiscal years 1993 and 1994, we identified bills representing
assessments of $1 million that had not been mailed.

           The Portland Area and Project Offices did not follow required procedures,
such as the use of administrative offset or placing holds on individual Indian money
accounts, to collect delinquent operation and maintenance charges. Area Office and
Project personnel said that they were reluctant to pursue debt collection from the
Yakima Indian Nation and individual Indians, who owe 93 percent of the
$6.5 million delinquent debt owed to the Project, because of the Nation’s belief that
payment of operation and maintenance charges was part of the Bureau’s trust
responsibility. We identified $1.2 million that had not been collected for fiscal
years 1993 and 1994. In addition, neither the Portland Area nor the Project Office
had a plan for collecting the delinquent debt.

           The Area Office allowed the Yakima Agency to discontinue requiring
surety bonds or other security instruments for the lessees of Indian lands, even
though Federal regulations require such instruments to ensure that lessees honor
their contractual obligations. The Agency had also negotiated and renegotiated
leases with lessees who owed operation and maintenance charges. Agency personnel
stated that the Yakima Indian Nation believed that the bond requirement lessened
their lease revenues and, as such, had requested that the bonds be discontinued. We
believe, however, that the discontinuance of the bonds, in effect, encouraged
delinquencies, increased the debt against Indian-owned lands, and provided
unintended subsidies to non-Indian irrigators.

To correct the deficiencies noted in this review and in our 1988 audit report
(No. 88-42), we recommended that the Project Office, with oversight by the Portland
Area Office, take the following actions: determine the full cost of properly operating
and maintaining the Project; establish reserve funds to rehabilitate and replace
facilities and equipment; comply with Departmental billing regulations and
procedures; and enforce debt collection procedures. In addition, we recommended
that the Portland Area Office develop a plan for collecting the Project’s $6.5 million
of delinquent operation and maintenance charges and that the Yakima Agency renew
its enforcement of surety bonds or other security instruments.
The September 25, 1995, response (Appendix 4) to our draft report from the
Assistant Secretary for Indian Affairs generally concurred with the six
recommendations and was sufficient for us to consider all the recommendations
resolved but not implemented. Accordingly, the recommendations will be referred
to the Assistant Secretary for Policy, Management and Budget for tracking of
implementation, and no further response to the Office of Inspector General is
required (see Appendix 5).

In addition, we suggested that the Bureau request a Solicitor’s opinion to determine
whether the $2.1 million in delinquent Project operation and maintenance debt being
proposed for cancellation under the Leavitt Act would be subject to the Revenue
and Reconciliation Act of 1993. This Act requires that the Internal Revenue Service
be informed of the cancellation of individual debts over $600. The Bureau requested
a Solicitor’s opinion on March 31, 1995.

The legislation, as amended, creating the Office of Inspector General requires
semiannual reporting to the Congress on all audit reports issued, the monetary
impact of audit findings (Appendix 1), actions taken to implement audit
recommendations, and identification of each significant recommendation on which
corrective action has not been taken.

We appreciate the participation of Bureau officials in the conduct of our audit.
                                        CONTENTS
                                                                                               Page

INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

       BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
       OBJECTIVE AND SCOPE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
       PRIOR AUDIT COVERAGE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

RESULTS OF AUDIT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4

       A. PROJECT REIMBURSABLE CONSTRUCTION COSTS . . . . . . . 4
       B. PROJECT OPERATION AND MAINTENANCE FUNDING . . . . 5

OTHER MATTERS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15

APPENDICES

       1. CLASSIFICATION OF MONETARY AMOUNTS . . . . . . . . . . .                               16
       2. ORGANIZATIONS VISITED OR CONTACTED . . . . . . . . . . .                               17
       3. SUMMARY OF UNIMPLEMENTED RECOMMENDATIONS
            FOR THE WAPATO IRRIGATION PROJECT FROM
            AUDIT REPORT NO. 88-42 . . . . . . . . . . . . . . . . . . . . . . . . .             18
       4. BUREAU OF INDIAN AFFAIRS RESPONSE . . . . . . . . . . . . . .                          19
       5. STATUS OF AUDIT REPORT RECOMMENDATIONS . . . . . . .                                   33
                                  INTRODUCTION

BACKGROUND

The Wapato Irrigation Project, one of the largest Indian irrigation projects operated
by the Bureau of Indian Affairs, is located within the boundaries of the Yakima
Indian Reservation in Yakima County, Washington. The Project, which consists of
the Wapato-Satus Unit and three smaller units, was built at a cost of about
$9 million. Project facilities, some of which were constructed as far back as 1897,
include 2 diversion dams, 600 miles of canals and laterals, 150 miles of pipelines,
350 miles of drains, 16 pumping plants, and 2 hydroelectric plants.

The Project diverts about 600,000 acre-feet of water annually from the Yakima
River for the irrigation of approximately 142,000 acres of arable land, of which
78,000 acres, or 55 percent, are owned by Indians and 64,000 acres, or 45 percent,
are owned by non-Indians. The title to the Indian-owned land is held in trust for
individual Indians and the Yakima Indian Nation by the United States. Most of the
Indian owners lease their land to non-Indians. In 1993, 102,000 acres were farmed
by non-Indians, 13,000 acres were farmed by Indians, and 27,000 acres were idle.
The Bureau estimated the value of the crops produced in 1993 at $176 million. The
Project is operated by a Project Engineer, who is responsible for ensuring that the
Project is properly operated, maintained, and administered, including the assessing,
billing, and collecting of operation and maintenance charges from all Project
landowners and water users. The Project Engineer reports to the Area Director of
the Portland Area Office.

Since 1976, the Bureau of Reclamation, the Bureau of Indian Affairs, and the
                                               l
Yakima Indian Nation have issued six reports addressing the deteriorated physical
condition of the Project. The Bureau of Reclamation’s 1976 report stated that most
of the Project’s physical facilities were in various stages of deterioration and
identified the need for detailed cost and maintenance records and a program to
ensure that equipment, vehicles, and facilities were maintained and replaced on a
regular schedule. The Bureau of Reclamation’s 1990 report stated that the Project
was in a progressive state of deterioration because of insufficient operation and
maintenance funding. The report identified serious health, safety, and security
violations that increased the Government’s liability, as well as the risk of injury or


1
 The six reports are “Facilities and Operations Appraisal, Wapato Irrigation Project, Washington,”
issued by the Bureau of Reclamation in 1976; “Trip Report on Technical Assistance to the Wapato
Irrigation Project,” issued by the Bureau of Indian Affairs in 1990; “Assessment of Hydroelectric
Generation and Transmission Facilities,” issued by the Bureau of Reclamation in 1990; “Safety and
Health Inspection of Wapato Irrigation Project,” issued by the Bureau of Indian Affairs in 1991;
“Water Conservation and Resource Enhancement Plan on the Yakima Indian Reservation Within the
Wapato Irrigation Project,” issued by the Yakima Indian Nation in 1992; and “Review of Operation
and Maintenance Program, Examination Report, Wapato Irrigation Project,” issued by the Bureau of
Indian Affairs in 1993.

                                                1
death to the general public. Similarly, the Bureau of Indian Affairs July 1991 report
identified 77 deficiencies, including 49 serious violations of Occupational Safety and
Health Administration and National Fire Code regulations. The Bureau of Indian
Affairs January 1993 report stated that only extensive rehabilitation of the Project
would bring it up to modern irrigation, operation, and safety standards. The report
noted that Project structures were almost uniformly in poor condition, with cracked
and deteriorating concrete, and that the main canal would require almost complete
replacement to bring it up to operating standards. The report recommended that the
Project be considered for a rehabilitation and betterment program because the
Project does not have the revenues available to fund the needed repairs.

OBJECTIVE AND SCOPE

This review was performed as part of our audit of the Bureau of Indian Affairs
irrigation program to determine whether the Bureau: (1) took appropriate actions
to identify and collect reimbursable construction costs owed by non-Indians; and
(2) adequately assessed, billed, and collected annual operation and maintenance
          2
charges. The results of our Bureauwide review will be addressed in a separate
report. We are issuing a separate report on the Wapato Irrigation Project because
of the Project’s financial problems and the Project’s severely deteriorated physical
condition.

To accomplish our review, we interviewed officials from the Bureau, the Department
of the Interior’s Office of the Solicitor, and water user organizations concerning the
financial aspects and the operation and maintenance of the Project. In addition, we
reviewed laws and legislative histories, Congressional correspondence and hearings,
Bureau policy and procedure manuals, Bureau correspondence, and technical reports
from various sources on the physical condition of Project facilities and equipment.
We reviewed Project and Bureau records related to billing and collecting charges,
Project expenditures, leasing, and idle lands. Our audit covered primarily Bureau
and Project activities related to the development of operation and maintenance
assessment rates and to the billing and collecting of operation and maintenance
charges for fiscal years 1993 and 1994. Similar activities for prior periods were
included as appropriate.

The audit, which was conducted from May through December 1994 at the locations
listed in Appendix 2, was made in accordance with the “Government Auditing
Standards,” issued by the Comptroller General of the United States. Accordingly,
we included such tests of records and other auditing procedures that were considered
necessary under the circumstances. As part of our audit, we evaluated the Bureau’s
system of internal controls and found weaknesses in the Bureau’s processes for




                                          2
assessing, billing, and collecting operation and maintenance charges for the Project
and in the Bureau’s enforcement of surety bond or other security requirements. We
also reviewed the Department’s Annual Statement and Report, required by the
Federal Managers’ Financial Integrity Act, for fiscal years 1992 and 1993 to
determine whether any of the reported weaknesses were directly related to the scope
of our audit. The reports cited long-standing material weaknesses in the Bureau’s
irrigation program and debt collection practices, including the need for regulations,
policies, and procedures to be updated because these criteria were insufficient to
properly administer irrigation projects and debt collection functions.

PRIOR AUDIT COVERAGE

In 1988, the Office of Inspector General issued the audit report “Operation and
Maintenance Assessments of Indian Irrigation Projects, Bureau of Indian Affairs”
(No. 88-42). The report stated that the Bureau was not assessing, billing, and
collecting operation and maintenance charges as required. In addition, the Bureau
had not properly accounted for $807,891 of reimbursable construction costs collected
at the Wapato Irrigation Project. The report contained 21 recommendations, 15 of
which applied to the Wapato Irrigation Project. The Bureau’s corrective action plan
was sufficient to resolve the 15 recommendations that applied to the Project;
however, in our current review, we found that 8 of the 15 recommendations were not
fully implemented (see Appendix 3).




                                          3
                               RESULTS OF AUDIT

A. PROJECT REIMBURSABLE CONSTRUCTION COSTS
The Wapato Irrigation Project Office continued to collect the reimbursable
construction costs owed to the Federal Government by the Project’s non-Indian
landowners in a timely manner. In our January 1989 report “Repayment of
Investment in Indian Irrigation Projects, Bureau of Indian Affairs,” we concluded
that the Wapato Irrigation Project was one of only two projects, out of the seven
reviewed, in which reimbursable construction costs were being repaid in a timely
manner. Our current audit disclosed that the process for billing, collecting, and
accounting for reimbursable construction costs was essentially unchanged. Therefore,
                                                                                   3
we performed a limited review of the Project’s Wapato-Satus and Ahtanum units,
the Project’s two major units, to ensure that Project personnel were billing and
collecting reimbursable construction costs in accordance with repayment provisions
published in the Federal Register. We found that the costs were being appropriately
accounted for. Therefore, the unpaid balance of the reimbursable construction costs
continued to decline and the amount of delinquent construction receivables was
insignificant in relation to construction cost repayments as follows:

                     Reimbursable
      Project        Construction             Amount               Unpaid           Amount
       Unit              costs                 Repaid              Balance         Delinquent
    Wapato-Satus        $4,289,619           $4,218,650             $70,969           $10,269
     Ahtanum                 21,436                 20,359             1,077                10


       Total            $4,311,055           $4,239,009

The Project Office has been able to obtain timely repayment because the water rights
applications of Project landowners included a provision requiring that landowners
repay a proportionate share of the Project’s reimbursable construction costs.
Therefore, the unpaid portion of the reimbursable construction costs for the Project’s
major units totaled only $72,046 as of September 30, 1994.




3
 There are no reimbursable construction costs applicable to the Toppenish Simcoe Unit. Water is
provided on a request and/or demand basis only and is billed at that time. Final construction costs
for the “Additional Works” unit have not been determinedly the Bureau.

                                                4
B. PROJECT OPERATION AND MAINTENANCE FUNDING

The Portland Area Office and the Wapato Irrigation Project Office did not ensure
that all revenues owed to the Project were obtained to properly maintain Project
facilities and equipment. The Code of Federal Regulations and the Departmental
and Bureau Manuals require that operation and maintenance rates cover the full
costs of all Project activities involved in delivering irrigation water and that operation
and maintenance charges be properly and promptly billed and collected. However,
Project personnel did not: (1) accurately estimate and include in the operation and
maintenance rates all costs necessary to operate and maintain Project facilities and
equipment; (2) bill all landowners and water users; and (3) comply with debt
collection procedures. In addition, Project personnel’s efforts to assess and recover
costs were hampered because Yakima Agency Office personnel did not provide
Project personnel with up-to-date land ownership and water user information and did
not enforce surety bonding or other security requirements. Further, the Area Office
did not develop supplemental guidance or provide the oversight necessary to ensure
that Project and Agency personnel complied with existing policies and procedures.
As a result, sufficient funds were not available to properly maintain the Project, and
it has deteriorated to the extent that several studies have concluded that the
continued ability of the Project to deliver water is in doubt. We could not determine
the amount of the underassessments because Project personnel had not developed
and included all costs in Project assessment rates. However, we found that total
delinquent operation and maintenance charges assessed by and owed to the Project
had increased to $6.5 million, which included, for fiscal years 1993 and 1994,
operation and maintenance charges of $1 million that had not been properly billed
and additional charges of $1.2 million that had been billed but not collected,

Assessing Operation and Maintenance Rates

Title 25, Part 171, of the Code of Federal Regulations and the Bureau of Indian
Affairs Manual (55 BIAM, Supplement 4) require that the Bureau establish an
operation and maintenance rate based on the full estimated cost of the project
activities involved in delivering irrigation water and maintaining completed project
facilities. However, these regulations are general, and neither the Bureau nor the
Area Office had developed specific guidance on what costs should be included in the
operation and maintenance rate. As such, the operation and maintenance rates
developed by Project personnel and the resultant revenues were insufficient to stem
the deterioration of Project facilities and equipment.

We found that the assessed operation and maintenance rates did not cover the full
costs of delivering water. Specifically, Project personnel had not developed the data
necessary to prepare accurate budget estimates upon which to base an operation and
maintenance rate that would address the Project’s current and future maintenance
needs. For example, personnel had not developed: (1) a comprehensive, current,
and accurate inventory of Project facilities and equipment; (2) estimates of the
current and future costs of maintaining and replacing facilities and equipment,


                                            5
including cost estimates for equipment ownership and contingencies; and (3) a plan
and prioritized schedule for maintenance and rehabilitation work which ensured that
facilities and equipment were properly maintained and replaced on a regular and
systematic schedule. Instead, Project personnel budgeted operation and maintenance
costs based only on estimated routine operating costs, such as wages, utilities,
gasoline, and office equipment, and generally excluded the costs of needed capital
improvements. Accordingly, maintenance was performed only on an exception basis,
whenever funds were available to the Project.

The lack of adequate maintenance, combined with the increasing age of Project
facilities, has resulted in the deterioration of the Project. This deterioration was
validated in a video of the Project given to us by Area Office personnel and has been
well documented in the technical reports on the Project that were previously
discussed. These reports noted, and we observed during our tour of Project facilities,
that the Project’s pumping and hydroelectric plants, much of its equipment, and
many of its concrete structures were in poor condition and needed extensive
rehabilitation or replacement as follows:

      - The Project’s two hydroelectric plants, which should be providing part of
the Project’s electrical power, were not operating. One plant has been out of service
for about 4 years, and the other plant has been out of service for about 2 years
because of safety violations. As a result, the Project Office purchased electrical
power from a commercial utility at an additional cost of about $300,000 per year.

           An equipment listing provided by the Project Office revealed that 40 of the
48 pieces of movable equipment, such as bulldozers and backhoes, were 15 years old
or older, even though the estimated useful lives of these items are generally 7 to
15 years. Project personnel had classified 27 of the 48 pieces in poor condition and
13 pieces in fair condition, but the Project Office had not developed equipment
replacement rates and included such costs in the annual operation and maintenance
rate.

The Bureau, based on criteria in a 1960 memorandum from the Assistant
Commissioner (Administration), determined that lands within the Wapato Irrigation
Project were capable of supporting the full amount of the Project’s annual operation
and maintenance costs. Therefore, under Bureau regulations (25 CFR 171.19(a)),
all lands, regardless of whether water is requested, should be assessed operation and
maintenance charges that cover the full costs of delivering water. However, the full
costs of delivering water were not assessed, billed, or collected, in part, because until
1984, the Project’s operation and maintenance budget was partially supplemented by
funds from Bureau appropriations for construction and for payment of delinquent
operation and maintenance charges on idle trust lands. After funding for payment
of delinquent operation and maintenance charges was discontinued in 1984, the
Project rates were not increased to reflect the absence of these funds.

The Project Office did implement a 35 percent rate increase to provide funding in
1991 and 1992 for repairs and to allow the continued delivery of water. However,

                                            6
even this rate increase was not sufficient to address the Project’s deteriorated
condition because of the cumulative effect of the underassessment of operation and
maintenance charges and insufficient rate increases over at least the prior 10 years.
Further, we found that there were no additional operation and maintenance rate
increases for fiscal years 1993 and 1994, even though the Area and the Project
Offices and water users were aware that costs were increasing and that Project
facilities were deteriorating.

We believe that Project personnel should determine the total cost of all activities
involved in delivering water and maintaining the facility, which would include
developing cost estimates for the rehabilitation and replacement of facilities, based
on their estimated useful life and replacement costs. To establish an equitable basis
for a rehabilitation and replacement charge, the Project Office should develop a
comprehensive inventory of all Project facilities and equipment and include
information such as their age, physical condition, and remaining useful lives. The
inclusion of estimates for the replacement of facilities and equipment in future
operation and maintenance assessment rates would allow the Project to establish and
fund reserves for systematically rehabilitating and replacing the Project’s facilities and
equipment and for financing any repairs resulting from contingencies, such as acts
of nature.

Billing Operation and Maintenance Charges

Part 344 of the Departmental Manual requires that debts owed to the Government
be properly and promptly billed; that is, debtors should be promptly notified in
writing of the basis for their debt, the amount due, and the specified due date.
However, the Wapato Project Office did not notify all landowners and water users
in writing of their debt, as required. Of the approximately 8,600 billings generated
for fiscal years 1993 and 1994, we found 680 bills that had not been properly
prepared and mailed to landowners or water users. These bills, representing
assessments of $1 million, were primarily applicable to allotted Indian trust lands
                 4
that were idle. We reported this same condition in our 1988 report, which
identified 730 bills, totaling $630,000, that were not mailed in fiscal years 1984
through 1986. However, we found that the Area Office and the Project Office had
not, in the interim, taken corrective action to ensure that all bills were properly
prepared and mailed. As a result, this problem has impeded the ability of the
Project Office to obtain the revenues necessary to stem the deterioration of Project
facilities and equipment.

The operation and maintenance bills were not properly prepared and mailed
primarily because the Area Office did not ensure that Yakima Agency Realty and
Project personnel worked together to update idle land ownership and lease records
with current and accurate names and addresses of all Project landowners and water


4
Allotted Indian trust lands are small parcels of tribal trust lands for which ownership has been
awarded to individual Indians.

                                               7
users. We found that Agency Realty personnel did not routinely inform Project
personnel of changes in land ownership and lease information, such as identifying all
                                                                     5
current landowners for some Project lands under multiple heirship. In other cases,
Project personnel had not been informed of leases executed by Agency Realty
personnel. For example, the 680 unmailed bills included 36 bills, with assessments
totaling $40,000, for lands which the Project Office presumed were idle but which
had been leased by the Agency office. Delinquent operation and maintenance
charges on leased or idle trust lands attach to and become a debt of these lands.
Accordingly, we believe that the Area Office should establish procedures to ensure
that Agency Realty personnel provide Project Office personnel with current names
and addresses of all landowners and lessees of Project lands before the beginning of
each irrigation season.

We also found that operation and maintenance bills for lands that were idle were not
mailed, in part, because the Area Office did not ensure that the Project Office
modified its billing practices for idle lands to conform with Departmental regulations
requiring that all Project landowners and water users be billed. Project personnel
informed us that their billing practices were based, in part, on guidance in the
Bureau Manual (55 BIAM, Supplement 4), which stated that when assessable Indian
trust lands were idle and the collection of assessments was “impossible” during the
current irrigation season, bills “shall be prepared and kept on file.” Under this
guidance, no further action was required unless the land involved was eventually sold
and the delinquent debt was paid from the proceeds of the sale. Project personnel
informed us that this guidance was based on the assumption that the owners of idle
lands were not able to pay operation and maintenance charges. In addition, Project
personnel stated that they did not believe that it was cost effective to annually bill
idle lands under multiple heirship, as each of these landowners owed only small,
insignificant amounts of monies.

We noted, however, that this guidance did not conform with current Departmental
debt collection requirements, which require that debts owed to the Bureau be
promptly billed and recorded to ensure that these amounts remain legally
enforceable debts due the Project. The Project Office also did not provide any
analysis to support its assumption that operation and maintenance charges on idle
lands were uncollectible or that billing multiple owners of idle lands for small
amounts was not cost effective. In addition, we found that the Project Office did not
bill the owners or lessees of Project lands on a consolidated basis but instead mailed
separate bills for each tract of land. This practice, which often results in one owner
or lessee being mailed several bills instead of just one bill, is cumbersome and
expensive to administer. We believe that Project personnel should be instructed to
follow Departmental billing procedures and to prepare and mail consolidated bills

5
under Indian probate laws, as individuals die, their property descends to their heirs as undivided
“fractional” interests in the allotments (tenancy in common). That is, if an Indian owning a 160-acre
allotment dies and has four heirs, the heirs do not inherit 40 acres each. Rather, they each inherit
a 1/4 interest in the entire 160-acre allotment. Over time, “fractionalization” has expanded
geometrically to the point where there are hundreds of thousands of tiny fractional interests.

                                                 8
for annual operation and maintenance charges to all landowners and water users of
Project lands.

Collecting Operation and Maintenance Charges

We found that except for a one-time collection effort in fiscal year 1993, the Area
and Project Offices had not implemented the required actions to collect delinquent
operation and maintenance charges owed to the Project, which, as of August 1994,
totaled $6.5 million. Specifically, the Area and Project Offices did not follow
procedures allowed by Title 4, Parts 101-105, of the Code of Federal Regulations and
Part 344, Chapters 2 and 3, of the Departmental Manual for the collection of
delinquent debts. These procedures include: (1) reporting debts to consumer
reporting agencies; (2) referring debts to commercial collection agencies;
(3) contacting debtors’ employment agencies; (4) liquidating available collateral;
(5) requesting the debtor’s mailing address from records of the Internal Revenue
Service; and (6) using an administrative offset against other monies due non-Indians,
Indians, and the Yakima Nation from the Government.

Regarding administrative offsets, Part 344, Chapter 3.1, of the Departmental
Manual provides, in part, that bureaus may collect debts owed by persons and state
or local governments (which include Indian tribal governments) by means of offsets
against other monies due from the United States. In addition, an area office may
place holds on and withdraw funds from individual Indian money accounts to
recover delinquent debts owed to the Government, as allowed by Title 25, Part 115.9,
of the Code of Federal Regulations. We found that neither of these additional
collection procedures was used by the Area Office. Instead, collection efforts were
generally limited to the Project Office mailing three separate demand requests for
payment, with no additional actions taken if payment was not received. In addition,
neither the Area Office nor the Project Office had an ongoing program or a
formalized plan, with target dates, for collecting the remaining $6.5 million of
delinquent charges owed to the Project. We also noted that the Project Office did
not terminate, as allowed under Title 25, Part 171, of the Code of Federal
Regulations, water deliveries to lands that had delinquent operation and maintenance
charges. The failure to terminate water deliveries has impeded the ability of the
Area and the Project Offices to collect delinquent operation and maintenance
charges in that nonpayment was not penalized. Rather, nonpayment was rewarded
because the irrigator’s revenues were increased by the amount of the delinquent
operation and maintenance charges.

The 1993 debt collection effort was initiated because the Project was virtually without
funds and needed additional revenues to continue to operate. The Area Office, with
the assistance of the Office of the Solicitor, collected approximately $117,000 of the
delinquent charges and obtained promissory notes for an additional $463,062 owed
by non-Indians. In addition, the Yakima Nation paid about $426,754 against the
delinquent operation and maintenance charges of approximately $1.4 million owed
in 1993. However, since these efforts concentrated primarily on the 7 percent of the


                                           9
debt owed by the non-Indians and not on the 93 percent of the delinquent debt owed
by the Nation (18 percent) and the individual Indian lands (75 percent), the Project’s
delinquent debt was not reduced significantly. We noted that approximately
29 percent of the delinquent debt on individual Indian lands was applicable to leased
lands on which operation and maintenance charges were not paid and no surety
bonds were required.

The required debt collection procedures were not followed because the Project and
the Area Offices did not enforce implementation of the procedures. Area Office and
Project personnel told us that they were reluctant to pursue the collection of these
debts because of pressure from the Yakima Nation and individual Indians. In that
regard, a member of the Nation’s Irrigation and Land Committee informed us that
the Committee did not believe that the Nation or individual Indians should pay
operation and maintenance charges because the Nation believed that these costs
were a trust responsibility of the Bureau. While we were not provided, nor did we
find, any legal basis to support the Nation’s position, we did note that little or no
effort was made to collect the delinquent operation and maintenance charges owed
by the Nation or individual Indians

Because prescribed debt collection procedures were not implemented, the Project
Office’s ability to fund needed maintenance and rehabilitation of facilities and
equipment has been substantially reduced. Specifically, delinquent charges have
increased by $3.7 million, from $2.8 million in 1990 to $6.5 million in 1994, as
follows:


CUMULATIVE DELINQUENT OPERATION AND MAINTENANCE CHARGES
        (Excludes Interest, Penalty, and Administration Charges)

                       Individual          Yakima
     Fiscal Year         Indian            Nation          Non-Indian            Total

   Prior to 1990 $1,992,961               $303,332         $116,522         $2,412,815
        1990          2,327,950            379,695          149,376           2,857,021
        1991          2,802,937            536,694           195,327          3,534,958
        1992          3,384,746            722,833          260,231           4,367,810
        1993           4,009,396           975,147*         373,123           5,357,666
        1994           4,753,285         1,227,216          560,768           6,541,269
      *Represents the Nation’s fiscal year 1993 total debt after $426,754 was paid to the
      Project.

Of the $2.2 million increase in delinquent debt from 1992 to 1994, we found that
charges of $1 million were delinquent because bills were not properly prepared and

                                              10
mailed (see section “Billing Operation and Maintenance Charges”) and that
$1.2 million was delinquent, in part, because the Area and Project Offices did not
comply with required debt collection procedures. We believe that the Area Office
should coordinate with the Project Office to provide the oversight, assistance, and
support necessary to ensure that the collection of all delinquent operation and
maintenance charges is aggressively pursued in a timely and consistent manner, in
accordance with Departmental debt collection requirements. This effort should also
include a formalized plan, with target dates, for collecting the delinquent operation
and maintenance charges of $6.5 million owed to the Project. If these actions are
not taken, we believe that delinquent operation and maintenance charges will
continue to increase and that the ability of the Project to continue to deliver water
will be in jeopardy.

Bonding or Other Requirements

Title 25, Part 162.5, of the Code of Federal Regulations states that a satisfactory
surety bond or other security is required of lessees in an amount that will reasonably
ensure performance of contractual obligations under the lease. However, Yakima
Agency Realty personnel informed us that the Agency discontinued requiring surety
bonds in 1970 at the request of the Yakima Indian Nation, which believed that the
cost of surety bonds would result in reduced leased revenues to Indian landowners.
This lack of compliance with security requirements has continued for 25 years, in
part, because of insufficient oversight by Area Office personnel. As a result, Agency
Realty personnel negotiated and renegotiated agricultural leases with lessees who
owed operation and maintenance charges without requiring surety bonds. This
practice has directly increased the delinquent operation and maintenance charges
owed to the Project and thus the debt on individual Indian trust lands.

Our analysis of a 1994 Bureau delinquency report disclosed 313 lessees with
accumulated delinquent operation and maintenance charges totaling $875,000 for the
7-year period 1988 through 1994. This list included three irrigators whose delinquent
operation and maintenance charges during this period totaled about $409,000.
Further, Agency Realty personnel had leased and renewed leases for numerous tracts
of Indian trust land to these individuals without requiring surety bonds. However,
these three irrigators had been delinquent in paying part or all of their operation and
maintenance charges for up to 20 years, for which unpaid charges totaled about
$524,000. This amount is now reflected as delinquent operation and maintenance
charges on individual Indian trust lands. We also noted that the Project Office did
not terminate water deliveries to these lands, as required. Thus the Agency and the
Project Office have subsidized these irrigators’ operations.

We understand the desire of the Nation to maximize lease revenues and the general
reluctance of Agency Realty personnel to enforce bonding requirements because of
the request from the Nation. However, this same basic condition, the lack of
enforcement of bonding requirements, was identified in our 1988 audit report, and
neither the Area Office nor the Agency has taken action to address the lack of surety


                                          11
bonds on leased lands. Accordingly, we believe that the Agency’s implementation
of the requirement for surety bonds or other securities, such as certificates of
deposit, to ensure performance of lessee obligations under the lease is essential and
that the Area Office should enforce this requirement for all leased lands. We also
believe that the Agency should take action against the bond or other security if
irrigation operation and maintenance charges are not paid. In addition, the Area
Office should instruct Agency personnel to coordinate with Project personnel to
ensure that leases are not made or renewed until delinquent operation and
maintenance charges are paid. In our opinion, these actions are necessary to ensure
the continued operation of the Project and protect the interests of all Project
landowners and the Government by preventing the accrual of additional liabilities
against Indian trust lands.

Recommendations

We recommend that the Assistant Secretary for Indian Affairs require:

       1. The Wapato Irrigation Project Office to develop a comprehensive inventory
of facilities and equipment and Project budgets and assessment rates which include
accurate estimates of the full costs of properly operating, maintaining, rehabilitating,
and replacing the Project’s infrastructure. These estimates should include costs for
capital improvements, contingencies, and equipment replacement. The Portland
Area Office should provide the oversight and technical assistance needed to ensure
that these documents and estimates are prepared by the Project Office.

       2. The Project Office, with technical assistance from the Portland Area Office,
to establish and fund reserve accounts for capital improvements, contingencies, and
equipment replacement.

      3. The Project Office to comply with Departmental billing regulations and
procedures, which require that all owners or water users of Project lands be billed
annual operation and maintenance charges. In this regard, the Yakima Agency
should be required to provide the current names and addresses of all Project
landowners and lessees to Project personnel before the beginning of each irrigation
season.

     4. The Portland Area Office to develop a formalized plan, with target dates,
for collecting the approximately $6.5 million of delinquent operation and
maintenance charges owed to the Project.

      5. Project personnel to enforce debt collection procedures and to terminate
water deliveries to lands on which there are delinquent operation and maintenance
charges.




                                           12
      6. Yakima Agency Realty personnel to enforce surety bonding or other
security requirements and not to lease lands or renew leases when delinquent
operation and maintenance charges are owed by the lessees.

Bureau of Indian Affairs Response

The September 25, 1995, response (Appendix 4) from the Assistant Secretary for
Indian Affairs concurred with Recommendations 1, 2, 3, 4, and 6 and did not state
concurrence or nonconcurrence with Recommendation 5.

       Recommendation 1. The Bureau concurred and stated that Project Office
personnel would inventory project equipment, determine a replacement date and an
estimated replacement cost for each item, and adjust the operation and maintenance
rate for the 1996 irrigation season to ensure that the rate was sufficient to cover the
immediate expenses of operating the Project. The Bureau also stated that it would
inventory Project facilities, initiate design studies to establish the dates and costs of
replacing the facilities, identify needed repairs and maintenance to develop a full-cost
operation and maintenance rate, and establish a policy for defining the amount of
contingency funds needed for the Project.

       Recommendation 2. The Bureau concurred and stated that it would revise its
regulations to establish its authority to assess irrigation rates sufficient to recover a
project’s total operation and maintenance costs, including contingencies. To
implement the regulation change, the Bureau said that it will establish a new section
in its Manual (48 Bureau of Indian Affairs Manual) to specify procedures for
assessing, billing, and collecting irrigation charges. In addition, according to the
Bureau, the Project’s business plan, when developed, will recommend operation and
maintenance rates that are sufficient to fund a reserve account.

       Recommendation 3. The Bureau concurred and stated that for the last 2 years,
the National Irrigation Information Management System has provided limited billing
support to the Project. The Bureau further stated that to more fully use the System
to support the Project’s irrigation billing needs and ensure that all landowners and
water users are billed annual operation and maintenance charges, the Yakima
Agency will enter information on multiple ownership of land into the System before
bills are developed for the 1996 irrigation season. The Bureau further stated that
the Area Realty Officer will develop a method for automating verification of the
Portland Area Office’s land ownership records with the land ownership records in
the System’s database.

       Recommendation 4. The Bureau concurred with the recommendation, stating
that the Portland Area Office will continue efforts to collect delinquent amounts.
In addition, the Bureau cited new actions taken as follows: (1) issuing the required
demand letters after verifying the addresses of current landowners or water users;
(2) submitting delinquent accounts to a commercial debt collection contractor for
collection with the referral to the Solicitor, if appropriate, of accounts returned by
the contractor; (3) withholding approval of the Yakima Indian Nation’s tribal budget
unless the budget includes amounts for the payment of operation and maintenance
charges on tribal lands; and (4) analyzing the individual Indian money accounts of
Indian landowners with delinquent operation and maintenance charges to determine
the availability of funds and to initiate collection actions.

       Recommendation 5. Although the Bureau did not indicate concurrence, it
stated that the Project will, where possible, refuse to deliver water to landowners or
lessees that have delinquent operation and maintenance charges and will not renew
leases to lessees that have delinquencies. In addition, according to the Bureau,
operation and maintenance charges due from prior lessees will be referred to the
debt collection contractor for collection. The Bureau further stated that if the
contractor is unable to collect from Indian landowners or lessees, their individual
Indian money accounts will be analyzed by the Area Office to determine the
availability of funds and to initiate collection actions. Further, the Bureau said that
communication between Agency Realty and Project personnel will be improved by
moving the Project’s Irrigation Billing Section to the Yakima Agency Office and by
using the National Irrigation Information Management System to provide Project
administrators with a delinquency report by account and tract of land.

       Recommendation 6. The Bureau concurred, stating that the Portland Area
Director’s August 24, 1994, memorandum directed the Yakima A g e n c y
Superintendent to require an irrevocable letter of credit sufficient to cover the full
amount of annual operation and maintenance charges for all leases in force on or
after January 1, 1995.

Office of Inspector General Comments

Based on the Bureau’s response and discussions with Bureau officials from the Office
of Audit and Evaluation and from the Power and Irrigation Reconciliation Team, we
consider the six recommendations resolved but not implemented (see Appendix 5).

Regarding Recommendation 5, the Bureau’s proposed actions are sufficient to meet
the intent of the recommendation. Regarding Recommendation 6, we noted that the
Area Director’s directive had not been implemented for the 1995 irrigation season
and that the directed actions should therefore be taken prior to the 1996 irrigation
season.




                                          14
                             OTHER MATTERS
Since the completion of our site work, the Portland Area Office requested the
Bureau of Indian Affairs Washington Office to submit, to the Secretary of the
Interior, the proposed cancellation, under the provisions of the Leavitt Act, of
approximately $2.1 million of delinquent Project operation and maintenance charges
for the period 1971 through 1991. The Leavitt Act (25 U.S.C. 386a) provides in part:

      The Secretary of the Interior is hereby authorized and directed to adjust
      or eliminate reimbursable charges of the Government of the United
      States existing as debts against individual Indians or tribes of Indians in
      such a way as shall be equitable and just in consideration of all the
      circumstances under which such charges were made . . . . [The Act also
      provides] that the Secretary shall report such adjustments and
      eliminations to the Congress not later than sixty calendar days following
      the end of the fiscal year in which they are made . . . and that any
      proceedings hereunder shall not be effective until approved by Congress
      unless Congress shall have failed to act favorably or unfavorably thereon
      by concurrent resolution within ninety calendar days after the filing of
      said report, in which case they shall become effective at the termination
      of the said ninety calendar days.

Before cancellation, we believe that the Bureau should obtain a Solicitor’s opinion
to determine whether debts canceled under the Leavitt Act are required to comply
with the provisions of the Revenue and Reconciliation Act of 1993, as specified in
Section 6050P of the Internal Revenue Code. These provisions require that Federal
agencies prepare and send Internal Revenue Service Form 1099-C, “Cancellation of
Debt,” to every debtor for whom they canceled a debt of $600 or more. The debtor,
in turn, is required to report the canceled debt as income for Federal tax purposes.
The applicable debts include amounts that are uncollectible under the statute of
limitations. If the provisions of the Revenue and Reconciliation Act are applicable,
the Bureau should develop procedures for accurately determining the amounts owed
by each debtor, generating the appropriate Internal Revenue Service form, and
notifying all the debtors involved.

Office of Inspector General Comments

The Bureau requested the Solicitor’s opinion on March 31, 1995.




                                          15
                                 APPENDIX 1




 CLASSIFICATION OF MONETARY AMOUNTS




Billings        $1,024,806


Collections                   $1,148,653
                                                         APPENDIX 2



              ORGANIZATIONS VISITED OR CONTACTED


           Organization                             Location


U.S. Department of the Interior

  Bureau of Indian Affairs

     Headquarters Office                      Washington, D.C.

     Portland Area Office                     Portland, Oregon

     Yakima Agency Office                     Toppenish, Washington

      Wapato Irrigation Project Office        Wapato, Washington

     Irrigation and Power Liaison and
       Compliance Section*                    Albuquerque, New Mexico

  Office of the Solicitor                     Portland, Oregon

Water User Organizations

  Irrigation Committee of the
     Yakima Indian Nation                     Toppenish, Washington

   Yakima Reservation Irrigation
     District (non-Indian)                    Yakima, Washington




*Contacted only

                                         17
                                                                                        APPENDIX 3


SUMMARY OF UNIMPLEMENTED RECOMMENDATIONS FOR THE
WAPATO IRRIGATION PROJECT FROM AUDIT REPORT NO. 88-42

             Recommendations                                Status of Corrective Actions

1. Forward the operation and maintenance             New procedures have not been developed that
billings for recently deceased Indians to the        require the Yakima Agency to notify the Wapato
appropriate probate officials for possible           Project Office of recently deceased Indians and to
inclusion in the probate,                            allow the forwarding of any unpaid operation and
                                                     maintenance billings to the Agency for inclusion in
                                                     the probate.
2. Bill multiple owners of all irrigated tracts of   The Bureau’s National Irrigation Billing System is
land or establish a point beyond which it is not     developing the capability to bill multiple owners of
cost-effective to do so.                             Indian trust land, but that capability is not
                                                     operational at the Project Office.
3. Develop procedures to ensure that project         Procedures still have not been developed to
personnel are promptly notified of all leases,       require that the Yakima Agency report all leases
especially those approved after the start of the     to the Project.
irrigation season.
4. Establish procedures to ensure that leased        Procedures have not been developed requiring the
acreage data is verified and is reconciled with      Yakima Agency and the Wapato Project Office to
the assessed acreage shown on the operation          annually reconcile their records to ensure that all
and maintenance billings.                            leased acreage is billed for operation and
                                                     maintenance charges.
5. Enforce the requirement for a surety bond,        The Yakima Agency is not enforcing procedures
or other security, to ensure payment or              that require surety bonds or other security
performance under the terms of the lease.            instruments to ensure the payment of Project
                                                     operation and maintenance charges and the
                                                     performance of other lease provisions.
6. Take prompt and decisive collection action        Since surety bonds were not required by the
against the lessor’s bond for the nonpayment         Yakima Agency, there is no security against which
of irrigation operation and maintenance              actions could be taken.
charges.
7. Correct the program problems affecting the        The replacement of the Bureau’s accounting
general ledger accounts receivable balances.         system by the Federal Financial System corrected
                                                     the program problems. However, the effects of
                                                     prior errors on the Bureau’s general ledger
                                                     accounts receivable balance have not been
                                                     corrected.
8. Reconcile the general ledger and project          Deficiencies between the irrigation operation and
subsidiary records for irrigation operation and      maintenance receivables in the Bureau’s general
maintenance receivables and properly maintain        ledger account and the Project’s subsidiary records
the records thereafter.                              have not been reconciled.
                                                                 APPENDIX 4
                                                                 Page 1 of 14
               United States Department of the Interior
                          OFFICE OF THE SECRETARY
                                Washington, D.C. 20240




Memorandum

To:          Assistant Inspector General for Audits
From:
             Assistant Secretary - Indian Affairs
Subject:     OIG Draft Audit W-IN-BIA-O02-94A - Wapato Irrigation
             Project

The subject audit evaluated whether the Bureau of Indian Affairs
 (Bureau) identified and collected reimbursable construction costs
owed by non-Indians and whether it assessed, billed, and
collected annual operation and maintenance (O & M) charges from
Wapato Project landowners and water users. Though the report
found that the Project collected construction costs in a timely
manner, it found the Bureau had not taken actions necessary to
levy or collect adequate O & M charges or to ensure proper
maintenance of Project facilities and equipment. Our responses
to the draft audit report recommendations are included below:
Recommendation 1 : The Wapato Project Office (should be required)
to develop a comprehensive inventory of facilities and equipment
and Project budgets and assessment rates which include accurate
estimates of the full costs of properly operating, maintaining,
rehabilitating, and replacing the Project’s infrastructure.
These estimates should include costs for capital improvements,
contingencies, and equipment replacement. The Portland Area
Office should provide the oversight and technical assistance
needed to ensure that these documents and estimates are prepared
by the Project Office.

Response: The Bureau concurs. The Project Office will inventory
Project equipment and will assign each element a replacement date
and an estimate of replacement costs. The Project will develop
an adjusted O & M assessment rate for the 1996 irrigation season
in consultation with the water users. The rate will be
sufficient to cover immediate operations expenses.
        Responsible Official:                Ernest Clark
                                             Project Administrator
        Due Date:                            November 1995



                                        19
                                                          APPENDIX 4
                                                          Page 2 of 14

For longer term Project management, Project facilities will be
inventoried and design studies will be initiated as required to
include establishment of replacement date, replacement cost and
design for repair and maintenance of Project facilities. On
August 21, 1995, the Bureau’s Deputy Commissioner authorized the
Office of Trust Responsibilities to establish a Power and
Irrigation Reconciliation Team (PIRT) to determine asset
valuations and to develop a business operating plan for each
irrigation project, as well as to reconcile project accounts
(Attachment A) . The Portland Area Office will support the PIRT
effort, as described in their Corrective Action Plan (Attachment
B, page 1) .
     Responsible Officials:           Joe Davis, PIRT Leader
                                      Ernest Clark
                                      Project Administrator
     Due Date:                        Initiate Wapato Project in
                                      January 1996 and continue
                                      effort through December 1997
To record the plant and equipment inventory and to support rate
setting for irrigation services, the Bureau will develop a real
property and equipment accountability module in its National
Irrigation Information and Management System (NIIMS    The real
property module will:
●
     Identify and record plant and equipment assets
●    Record service life factors to
     a)   Plan plant and equipment maintenance and replacement
     b)   Set rates adequate to accumulate funds to finance the
          servicing
     c)   Schedule staff and resources adequate to execute
          maintenance tasks.
●    Recognize collections and allot funds to capital reserves to
     finance maintenance and replacement efforts.
The Bureau’s Office of Trust Responsibilities will work with the
Portland Area Office and all irrigation projects to establish a
policy for defining the amount of contingency funds needed for
each project.
     Responsible Official:          John Williamson, Chief
                                    Irrigation and Power Liaison
                                    and Compliance Section
     Due Date:                      December 1997


                               20
                                                       APPENDIX 4
                                                       Page 3 of 14

               2. . The Project Office, with technical assistance
from the Portland Area Office, (should be required) to establish
and fund reserve accounts for capital improvements,
contingencies, and equipment replacement.
Response: The Bureau concurs. In September 1995, the Bureau
will publish a draft revised 25 CFR 171: Irrigation Operation
and Maintenance, to establish the Bureau’s authority to levy
rates for irrigation services which are adequate to recover the
total cost for system operations, including funding for
contingencies. The Bureau expects to publish the Final Rule
during April 1996.




June 1996.
     Responsible Official:          Ross Mooney
                                    Division of Water and Land
                                    Resources
     Due Date:                      June 1996
When the PIRT staff, the Portland Area Office and the Project
staff develop a business plan for the Project’s operations
(Attachment B) , they will recommend rates which will be adequate
to fund the reserve accounts. Implementation of the NIIMS real
property and equipment module will accommodate the establishment
of reserve accounts.
                    The Project Office (should be required) to
comply with Departmental billing regulations and procedures,
which require that all owners or water users of Project lands be
billed annual operation and maintenance charges. In this regard,
the Yakima Agency should be required to provide the current names
and addresses of all Project landowners and lessees to Project
personnel before the beginning of each irrigation season.
Response: The Bureau concurs. NIIMS has provided billing
support to the Wapato Project for the last two years. Every
tract of land in the Wapato Project is identified and assessed
from the NIIMS billing module. In order to verify the names and
addresses of Project landowners and lessees prior to generating
bills, NIIMS generates a proof report which lists the tracts of
land, identified by unit serial number, and the land owner,
lessee or otherwise designated agent responsible for making
payment for O & M assessments for that tract of land. NIIMS can

                               21
                                                        APPENDIX 4
                                                        Page 4 of 14

support multiple heirship records to identify multiple owners who
share interest in each tract of land. The report will be
provided to the Yakima Agency for verification prior to bill
generation and mailing. To benefit from this NIIMS utility, the
Yakima Agency will enter the multiple ownership data into the
NIIMS database prior to the 1996 billing cycle. Further, the
Area Realty Officer is developing an interface to automate
verification of ownership records for the NIIMS database from the
Area’s land records database (Attachment B, page 2) .
     Responsible Official:          Ernest Clark
                                    Project Administrator
     Due Date:                      November 1995




Response: The Bureau concurs. The Portland Area Office will
continue its efforts to collect delinquent fee accounts and
promissory notes. They will verify vendor address and ownership
records; submit a list of vendors responsible for payment of
irrigation O & M assessments to a debt collection contractor to
initiate debt collection action; and submit those accounts
returned from the debt collection contractor to the Solicitor’s
Office for legal action if appropriate (Attachment B, page 2) .
The Area will withhold approval of the Yakima Tribal budget
unless the budget includes a provision for payment of the Tribe's
delinquent accounts. In cases where individual owners have not
made payment, the Area will review the availability of funds in
the owner’s Individual Indian Money (IIM) account(s) and collect
the delinquent fees from the owner’s IIM account(s) in compliance
with the Debt Collection Act of 1982 and using the procedures
defined in 25 CFR 115.09 and 115.10.
     Responsible Official:          Louis Hilderbrand
                                    Portland Area General Engineer
     Due Date:                      October 1 9 9 5

We consider this finding implemented.
            on 5: Project personnel (should be required) to
enforce debt collection procedures and to terminate
                                                 -
                                                    water
deliveries to lands on which there are delinquent operation and
maintenance charges.




                               22
                                                      APPENDIX 4
                                                      Page 5 of 14


Irrigation Billing Section to the Yakima Agency in May 1995. The
communication is further enhanced by NIIMS, which provides the
Project Administrator a report of delinquent accounts along with
an identifier for the affected tracts of land. The Project
refuses water delivery to those tracts of land unless the land is
leased to a new lessee not responsible for the prior debt. In
that case, the Portland Area Office will refer the prior lessee’s
unpaid O & M assessments to the debt collection contractor for
collection. The Agency will not open new leases with delinquent
lessees. If the contractor cannot collect the delinquent fees,
the Area will review the availability of funds in the
beneficiary’s Individual Indian Money (IIM) accounts and collect
the delinquent funds from the beneficiary’s IIM account in
compliance with the Debt Collection Act of 1982 and using the
procedures defined in 25 CFR 115.09 and 115.10. We consider this
finding implemented.




Attachments




                               23
                              PROJECT PLAN
       RECONCILIATION          OF   IRRIGATION   AND POWER   RECORDS

     ION I.   Objec t i v e   a n d Scope
Implementation of the plan will resolve the material weaknesses
identified in the Office of Inspector General (OIG) Audit
Reports:
.     Operation and Maintenance Assessments of Indian Irrigarion
      Projects, Bureau of Indian Affairs, February 1988, and
.     Repayment of Investment in Indian Irrigation Projects,
      Bureau of Indian Affairs, January 1989.
.     Repayment of the Federal Investment in the Flathead Indian
      Irrigation Project, Bureau of Indian Affairs, March, 1994.
      Wapato Irrigation Project, Bureau of Indian Affairs,
      Preliminary Draft Report, Pending publication in Draft.

Irrigation and Power records,       including validation of the
construction debt to be repaid to the U.S. Government, and complete
the implementation of the Bureau’s National Irrigation Management
Information System (NIIMS). This will include each of the three
Power and 18 Irrigation entities currently operating within the
Bureau which collect water and power user fees and having
construction debt repayment provisions. The Power and Irrigation
Reconciliation Team (PIRT) will carryout and administer the process
through to completion.


Under the direction of the Office of Trust Responsibilities (OTR),
PIRT will consist of staff from OTR, Division of Accounting
Management, Office of the Inspector General, Office of Audits and
E v a l u a t i o n , and staff from other Departmental bureaus and offices
With experience in the conduct and operation of the work” required
to accomplish the objectives of the project. Mr. Joe Davis of the
Irrigation and Power Liaison Compliance Section will supervise the
project staff. Funds for this project, which is estimated to cover
a maximum three year period, are available and authorized.
The project team will be divided into groups to- perform on-site
reconciliations; coordinate interface with the Bureau’s accounting
and ’budgeting systems; and, to revise regulations and policy
              Tasks and outputs will be identified to meet
predetermined due dates.    Status reports will be prepared and
submitted to the Director, OTR by the Project Leader on a monthly
basis for the first six months of the project and quarterly basis
thereafter, as deemed necessary by the Director.
                                        24
                                                         APPENDIX 4
                                                         Page 7 of 14
                                                                    2

                       PROJECT PLAN
The team will develop a survey plan prior to proceeding with the
detailed work at each project location.     The survey plan will
provide an estimate of the cost and time for gathering background
data for purposes of developing a detailed work plan for that
                       After completion of the project Survey, the
project leader will approve the actual work to be accomplished,
with staff assignments and due dates. Work may be concurrent or
sequential (successive) pending staff resource availability and
project complexity as assessed by the project leader and the
Director.
SECTION III.   TASKS
The following are the major tasks to be addressed by the project
team:
 (1) Review and reconcile each irrigation project and Power project
     to provide validated account balances in the appropriate
     subsidiary and control accounts of the Bureau.     Under this
     tack, the team will conduct the following on-site, at each
     project:
      o   review and updating of subsidiary and control account
          balances;
      o   review and    updating,   if necessary; of   designation
          reports;
      o   review and reconciliation of Federal capital investment
          ( construction debt) and Operations and Maintenance (O&M)
          debt;
      o   review and reconciliation of repayment contracts of
          construction debt and update repayment contracts for
          approval, if required;
      o   review   and   reconciliation of   the   operation  and
          maintenance assessment and update the rate schedules to
          conform with regulations, if required;
     o     develop recommendations for cancellation of construction
           and/or O&M debt and O&M assessment balance, where
          appropriate;
     o    review and reconcile land records         and determine
          probability and legality of collection of amounts due the
          Bureau and/or the Federal Government:
      o   assemble accounting and operating procedures and manuals
          for pe rmanent retention at each Project;
      o   provide training to designated BIA, Project, or Tribal
          personnel, when requested.
                                                                      APPENDIX 4
                                                                      Page 8 of 14
                                                                                     3
                             PROJECT PLAN
         (2) Identify and resolve project asset valuations and depreciation
             issues
         (3) Develop a business operation plan for each Project to ensure
              a basis for sustained successful project operation.
              o   Project accounting and operating procedures and manuals
             o    Project training plans;

                     Proposed Proj ect Schedule
     Below is the tentative schedule for the first

                                      Estimated           Est. Staffinq-
PROJECT NAME                          Start Date          Person/Mcnth
Flathead Irrigation                    09/01/95                   2
 & Power Project (Irrigation)
Flathead Irrigation                    09/01/95                   2
 & Power Project (Power)
San Carlos Irrigation                  11/01/95                   2
 Project (power)
San Carlos Irrigation                  11/01/95                   2
 Project (Irrigation)
Colorado River Irrigation Project      11/01/95                   4
Wapato Irrigation Project              01/01/96               8
Blackfeet Irrigation Project           05/01/96               2
Fort Peck Irrigation Project          .05/01/96               2
Fort Belknap Irrigation Project        07/01/96               2
Crow Irrigation Project                07/01/96               2
Wind River Irrigation Project          09/01/96               2
Phoenix Area Irrigation Projects       11/01/96               4

     *    Note: Estimated completion dates not included at this time due
          to uncertainty of staffing availability. Also, estimated
          on the availability, quantity of records, etc. at each project.

                                       26
                                                       APPENDIX 4
                                                       Page 9 of 14
                                                                      4

                     PROJECT PLAN
Section V:
Below is a preliminary list of BIA/ASIA personnel that have been
identified with the experience to immediately start the project
tasks. To expedite the objectives of the team, additional staffing
shall include personnel from other Department bureaus for qualified
personnel familiar with the Bureau’s irrigation and power
operations:
       Joe Davis, Systems Accountant, IPLCS, (Project Leader), BIA

       Bob Dobson, Accountant, IPLCS, BIA

       Andy Abeyta, Management Analyst, IPLCS, BIA

       Jackie Bouck, Management Analyst, Office of Audit &
       Evaluation, ASIA

       Steve Barnhart, Accountant, Division of Accounting
       Management, BIA




                       /




Concurrence:




                               27
                                                                              APPENDIX 4
                                                                              Page 10 of 14
                                                                                Attachment B


               OIG Draft Audit W-IN-BIA-002-94A - Wapato Irrigation Project
                      Bureau of Indian Affairs - Portland Area Office
                                  Corrective Action Plan


The Bureau of Indian Affairs, Portland Area Office, will execute the following tasks to correct
findings identified in the subject audit.




                         apato Project Administrator, is currently Acting Yakima Agency
       Superintendent. When a permanent Agency Superintendent is hired, the responsible
       official on this Corrective Action Plan will be revised to replace Mr. Clark.


 ~
TASK                                       Official               Due Date

Response 1- recover full cost of operating and maintaining the irrigation system

Inventory Project equipment and            Ernest Clark          June 1996
estimate replacement schedules             Project
and costs                                   Administrator


Develop an adjusted O & M assessment       Ernest Clark           November 1995
rate in time for the 1996 irrigation       Project
season                                      Administrator


Initiate R & B design studies to           Ernest Clark          June 1996
include replacement schedules              Project
and costs                                   Administrator


Participate with PIRT staff                Ernest Clark          Through
on ail tasks, including                    Project               December 1997
reconciliation of O & M                     Administrator
account balances, inventory of
plant and equipment, and maintenance
planning


Establish a policy to determine the        Louis Hilderbrand      June 1996
amount of contingency funds needed         Area Irrigation
for each project (along with all            Engineer
other Bureau projects)

                                                                                        Page 1
                                            28
                                                                         APPENDIX 4
                                                                         P a g e 11 of 14



Corrective Action Plan - continued



Task                                     Official
(Response 1- continued)

Develop a plan to create the needed      Ernest Clark       June 1996
reserve                                  Project
                                          Administrator

Response 2- establish and fund reserve accounts

Adjust assessment rates to fund          Ernest Clark       December 1997
reserve accounts                         Project
                                          Administrator

Response 3- comply with billing regulations

Enter ownership and lessee data into     Ernest Clark       January 1996
NIIMS database                           Acting Agency
                                          Superintendent


Develop interface to export data         Ernest Clark       November 1995
from Land Records database to            Acting Agency
NIIMS billing and collection database     Superintendent


Send bills to correct owner(s) or        Ernest Clark       March 1996
lessees, including multiple owners       Acting Agency
                                          Superintendent


Response 4- To the extent possible, recover $6.5 million O & M assessments   in   arrears

Verify owner or lessee address and       Ernest Clark       March 1996 with
records; mail bills and follow-up demand Acting Agency      demand letters
letters                                   Superintendent    as appropriate


Submit list of delinquent vendors        Louis Hildebrand   October 1995 and
to debt collection contractor            Area Irrigation    monthly thereafter
                                          Engineer


Review availability of funds in IIM      Ernest Clark       November 1996
accounts; pay irrigation assessments     Acting Agency
from IIM accounts                         Superintendent


                                                                                     Page 2
                                          29
                                                                           APPENDIX 4
                                                                           Page 12 of 14



Corrective Action Plan - continued


Task                                      Official            Due Date




Review Tribal budgets for payment of     Ernest Clark         November 1996
irrigation assessments; withhold         Acting Agency
approval of Tribal budgets pending        Superintendent
payment


Response 5- enforce debt collection procedures, including termination of water delivery


Issue memo to make lease renewal         Stanley Speaks       October 1995
contingent on being current on           Area Director
payment of irrigation assessments


Provide list of delinquent Trust accounts Ernest Clark        October 1995 and
to Agency Realty Officer                  Project             monthly thereafter
                                           Administrator


Refuse water delivery to delinquent      Ernest Clark         Current procedure
lessees pending payment of irrigation    Project
assessments                               Administrator


Response 6- enforce surety bonding

Finding implemented.


Required Reporting

Submit a statement of                    Louis Hilderbrand     October 1, 1995
Corrective Action Plan implementation    Area Irrigation       March 1, 1996
for the Secretary’s Semi-Annual Report    Engineer             and every six months
to Congress on Audit Follow-up                               . thereafter until audit
through DOI - Office of Audit and                              is implemented
Evaluation                                                        ..-




                                                                                        Page 3



                                          30
                                                                    APPENDIX 4
                                                                    Page 13 of 14
                                                                Attachment C




Portland Area Director

Modification of Lease Documents, Letters of C r e d i t



Superintendent, Yakima A g e n c y

Following discussions with, and input from, Wapato Irrigation Project (WIP) and
Agency staff; the Yakama Nation’s Lands, Roads, and Irrigation Committee; and
representatives of the Yakama Reservation Irrigation District, implementation of the
policy requiring Letters of Credit for all leases involving WIP lands has been revised.
Commencing immediately, all leases involving Project land which will be in force
on, or following, January 1, 1995, will contain contract terms requiring:

1.     Full payment of the current annual operation and maintenance (O&M)
       assessments on each parcel of Project land in the lease at the same time the
       lease payment is made

                                            or

2.     The execution of an irrevocable Letter of Credit for the full amount of the
       annual O&M assessment. The full payment of O&M will be due on April 1,
       1994. The date of lease payment is not changed.

The following will be added to the lease as a Special Condition:

       Lessee agrees to secure the annual payment of operation and
       maintenance assessments under Lease Provision Number 3 by
       obtaining an irrevocable letter of credit in sufficient amount to cover
       the annual amount of said charges. The letter of credit shall name
       the 131A as Payee, and shall specify that Payee may draw upon the
       letter of credit on presentation of a written statement that Lessee
       has failed to perform under Lease Provision Number 3. Lessee herein
       agrees that failure to renew a letter of credit within 30 days
       following any” BIA draw pursuant to this clause shall constitute
       separate breach of the terms of this Lease.

The intent of the requirement for a Letter of Credit is to- secure payment of the
Project’s O&M assessment from lease holder in the event payments are not provided
voluntarily.

Failure to provide full payment of O&M at the time the lease payment is due, or to
provide a satisfactory Letter of Credit, will be a breach of the [ease terms and will
result in cancellation under 25 CFR Part 162.
                                     31
                                                                     APPENDIX 4
                                                                     Page 14 of 14




It is within the discretion of the Superintendent to waive the requirement for payment
of the O&M assessment, or execution of a Letter of Credit, at the time the lease is
made final if the lessee is determined to be in good standing. Good standing is
defined as not having a history of delinquent O&M assessment of any duration on
either leased or fee land.

The individuals not in good standing at the initiation of a lease may change their
status through the following process:

       The lessee may apply to the Superintendent for a waiver to allow
        payment of O&M assessments on April 1 of the next contract year with
       no Letter of Credit security requirement if, during rhe previous two years
       of the lease, there has been acceptable performance of all terms under
       any lease. As a prerequisite to any valid request for a waiver. the lessee
       must be in good standing in the operation of any Indian leases and must
       demonstrate to the Superintendents satisfaction that none of the
       lessee’s O&M and other lease payments for any lease of Indian lands are
       delinquent. The decision to grant an annual waiver is vested exclusively
       in the discretion of the Superintendent, and may not be challenged or
       otherwise appealed by the lessee. .

Contact Tom Crooks, Area General Engineer, at (503) 231-6178, if there are any
questions.




cc: Michaei E. Drais, Attorney

TJCROOKS:trnh/8/08/94
c:wpwin\document\yakima\ltrocred.mmo
Branch Chrony
Subject Chroriy




                                    32
                                                               APPENDIX 5



       STATUS OF AUDIT REPORT RECOMMENDATIONS

Finding/Recommendation
        Reference            Status              Action Required

1, 2, 3, 4, 5, and 6     Resolved; not   No further response to the
                         implemented     Office of Inspector General is
                                         required. The recommendations
                                         will be referred to the Assistant
                                         Secretary for Policy,
                                         Management and Budget for
                                         tracking of implementation.




                                 33
                                                 i




                             Calling:




                       (809) 774-8300




Virgin Islands 00802




                       (700) 550-7279 or
                       COMM 9-011-671-472-7279
